TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Report on Accounting System Review



                                         September 2005

                             Reference Number: 2005-1C-172




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 26, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Accounting System Review (Audit # 20051C0238)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s overall accounting
 system controls as of January 15, 2004, to assure the system is adequate to provide costs that are
 reasonable, compliant with applicable laws and regulations, and subject to applicable financial
 control systems. Test procedures were applied from October 10, 2003, through
 January 15, 2004.
 According to the DCAA, the contractor’s overall accounting system and related internal control
 policies and procedures are adequate. However, during the course of its examination, the DCAA
 noted a matter involving the accounting system and related internal controls that, although not
 considered a significant deficiency at this time, the DCAA believes should be communicated to
 management. This matter is detailed in the “Suggestion to Improve the System” section (page 8)
 of the DCAA report.
 The DCAA examined only the overall accounting system. Accordingly, the DCAA expresses no
 opinion on the contractor’s system of internal controls taken as a whole.
 The DCAA report was dated March 2004; however, we did not receive a copy of the report until
 August 2005. The Treasury Inspector General for Tax Administration is not shown on the
 DCAA report distribution list. We are transmitting the report to you to assist in the management
 of the contract and to enable the Internal Revenue Service to track any financial
                                Report on Accounting System Review




accomplishments derived from negotiations with the contractor based on results from the DCAA
report.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
